August 2, 1995

IG-1

INFORMATION:     "Audit of Program Administration by the Office of
                  Energy Research"

The Secretary

BACKGROUND:

Congressional and Departmental initiatives envision improved
contract and program performance by requiring program managers
to set measurable performance expectations. Congress
recognized the need for performance expectations in passing
Public Law 103D62 entitled "Government Performance and Results
Act of 1993." The Act required agencies to set performance
goals, measure program performance against those goals, and
report publicly on program progress. Also, the Department's
Contract Reform Team noted that the pursuit and use of clear
expectations, accurate performance metrics, and evaluation
against those metrics could resolve many of the Department's
contract management problems. The audit was performed to
determine whether the Office of Energy Research (Energy
Research) had established performance expectations, including
performance criteria and metrics, and used these expectations
to monitor progress for basic and applied research performed
at the Department's national laboratories.

DISCUSSION:

The audit disclosed that Energy Research generally did not
clearly specify--at either an aggregated program level or an
individual task level--performance expectations for research
at the Department's national laboratories. Specifically, 237
of 264 tasks examined did not contain a clear statement of the
work to be performed, resource limits, milestones, specific
deliverables, or any other performance criteria and metrics
that could be used to measure performance. The absence of
documented performance criteria and metrics in the work
authorizations we examined made it impossible for us to
determine whether contractors performance of specific research
tasks or programs met Departmental expectations.

We also noted that Energy Research's current administrative
process gives the appearance of decision making at an
individual task level as it requires the proposing, funding,
and accounting for research at the individual task level.
However, as stated by officials in Energy Research, and
confirmed by our audit, management decisions are made at an
                                           -2-

aggregated program level rather than at the individual task
level. The current administrative process does not provide
Departmental elements responsible for performance-based
contract management a method of determining whether schedules
were met, resources were properly used, deliverables were as
specified, and the research performed was within the proper
mission. Performance criteria and metrics would also assist
external reviewers in evaluating contractor management of
research.

We, therefore, recommended that the Director, Office of Energy
Research review the administrative process and make
appropriate changes. Specifically, consideration should be
given to: (1) authorizing work based on requests received, and
(2) evaluating research progress based on the metrics in these
authorizations. The Director agreed in part to the finding
and recommendations and initiated corrective action.



                                                   (Signed)


                                                   John C. Layton
                                                   Inspector General

Attachment

cc:   Deputy Secretary
      Under Secretary

                              U.S. DEPARTMENT OF ENERGY
                             OFFICE OF INSPECTOR GENERAL




                          AUDIT OF PROGRAM ADMINISTRATION

                         BY THE OFFICE OF ENERGY RESEARCH


The Office of Inspector General wants to make the distribution
of its reports as customer friendly and cost effective as
possible. Therefore, this report will be available
electronically through the Internet five to seven days after
publication at the following alternative addresses:

                    Department of Energy Headquarters Gopher
                                     gopher.hr.doe.gov

              Department of Energy Headquarters Anonymous FTP
                                  vm1.hqadmin.doe.gov

   U.S. Department of Energy Human Resources and Administration
                                       Home Page
                     http://www.hr.doe.gov/refshelf.html

Your comments would be appreciated and can be provided on the
Customer Response Form attached to the report.



Report Number:     DOE/IG-0376        Eastern Regional Audit Office
Date of Issue:     August 2, 1995     Oak Ridge, Tennessee 37830

                                   REPORT ON AUDIT OF
                               PROGRAM ADMINISTRATION BY
                            THE OFFICE OF ENERGY RESEARCH



                                     TABLE OF CONTENTS



Page

                    SUMMARY .................................   1

PART I     D APPROACH AND OVERVIEW ...................      3

                    Introduction ............................   3

                    Scope and Methodology ...................   3

                    Background ..............................   4

                    Observations and Conclusions ............   5

PART II    D FINDING AND RECOMMENDATIONS .............      7

                    Program Administration...................   7

PART III   D MANAGEMENT AND AUDITOR COMMENTS ......... 14

Appendix A-         Energy Research Funds Provided
                 to the Management and Operating
                 Contractors............................ 16

Appendix B-         Fusion Energy Program Example of
                 Expectations........................... 17
Appendix C-      Office of Energy Research Response ...... 18
              to the Official Draft Report

                                             #=1

                            U. S. DEPARTMENT OF ENERGY
                            OFFICE OF INSPECTOR GENERAL
                              OFFICE OF AUDIT SERVICES



                                  REPORT ON AUDIT OF
                             PROGRAM ADMINISTRATION BY
                          THE OFFICE OF ENERGY RESEARCH


Audit Report Number:   DOE/IG-0376


                                          SUMMARY

        The Office of Energy Research (Energy Research) carries out
a broad range of advisory, coordination, and program management
activities for research in basic energy sciences, high energy
and nuclear physics, magnetic fusion energy, and biomedical and
environmental sciences. This basic scientific and applied
research is conducted by scientists at the Department's national
laboratories, which are operated by management and operating
contractors (contractors). The objective of the audit was to
determine whether Energy Research had established performance
expectations, including performance criteria and metrics, and
used these expectations to monitor progress for basic and
applied research performed at the Department's national
laboratories.

        Congressional and Departmental initiatives envision
improved contract and program performance by requiring program
managers to set measurable performance expectations. Even
though research outcomes are inherently unpredictable,
performance expectations can and should be established for
scopes of work, milestones, resource limits and deliverables.
However, Energy Research generally did not clearly specify--at
either an aggregated program or individual task level--such
expectations for research at the Department's national
laboratories. While information was available in the
contractor's research proposals, Energy Research essentially
relied on the contractors to initiate and execute the research
without agreement on expectations. This practice provided the
Department with little basis to measure and evaluate contractor
performance.

        Energy Research agreed in part with the finding and will
take action on the recommendations in the report. However,

Energy Research is concerned that unnecessary requirements on
its research performers could reduce desirable flexibility,
stifle creativity, and lead to inferior results.
                                                 (Signed)
                                              Office of Inspector General


                                          PART I

                                APPROACH AND OVERVIEW


INTRODUCTION

        Energy Research provided funds of about $1.4 billion
annually for both applied and basic research programs conducted
at the Department's national laboratories operated by
contractors including universities and consortia of
universities. The objective of the audit was to determine
whether Energy Research had established performance
expectations, including performance criteria and metrics, and
used them to monitor progress for research performed by these
contractors.


SCOPE AND METHODOLOGY

        The audit was performed from March 1994 through November
1994, at the Office of Energy Research, Chicago Operations
Office (Chicago) and Argonne National Laboratory (Argonne), and
covered Fiscal Years 1992 through 1994.

Our audit included the following methodologies:

        o Reviewed research proposals submitted by the
contractors;

        o   Evaluated the budget validation process;

        o Determined the level of funding provided by the
Department for work to be accomplished by the selected
contractors;

        o Judgmentally selected 264 research tasks representing
over $600 million of authorized research at the
Departmental laboratories.

        o Evaluated the guidance provided by Energy Research in
administering funds;

        o Interviewed Argonne, Chicago, and Energy Research
personnel; and

        o Analyzed the methods used by Energy Research to evaluate
performance of research.


        The audit was performed according to generally accepted
Government auditing standards for performance audits and
included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective.

        We assessed significant internal controls with respect to
providing and administering funds for basic and applied research
to contractors. Our assessment consisted of a review of
policies and procedures associated with the proposal of
research, the authorization of that research, and the guidance
provided by Energy Research over the contractors' management of
research. Because our review was limited, it would not
necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit.

        We discussed our finding with officials in the Office of
Energy Research during an exit conference on June 29, 1995.


BACKGROUND

        Energy Research engages contractors, primarily individual
universities or consortia of universities, to perform a broad
range of basic and applied energy research activities at
Departmental laboratories. Contractors, for example, perform
research in basic energy sciences, high energy and nuclear
physics, magnetic fusion, and environmental and health sciences.
During the three fiscal years ending 1994, Energy Research
funded about $1.4 billion annually for these research
activities. The chart in Appendix A provides a summary by
contractor of Energy Research funding to Departmental
laboratories for Fiscal Years 1992 through 1994.

        The contractual language binding the contractors and the
Department recognizes a close relationship between the parties
concerning the scope and development of the research work.
Energy Research's management practices have allowed program
offices within Energy Research to fund Departmental laboratories
using a system that places extensive reliance on the contractors
that operate the laboratories.

        The contractors and Energy Research define the mission of
laboratories through an annual institutional planning process.
Energy Research uses the institutional planning process to
direct the contractors to develop specific laboratory missions,
20-year strategic plans, scientific initiatives, research
programs, technology transfer activities, and the expected use
of resources including facilities, funding and personnel.

Contractors use their scientific and technical management
expertise to develop plans as to how future resources should be
utilized to meet challenges facing the scientific community and
make the most advantageous use of the Department's scientific
research facilities. Contractors also use the institutional
planning process to guide them in developing research
initiatives and resource estimates for the annual budget request
to Energy Research.
        Energy Research authorizes funds to contractors for the
performance of research through documents called work
authorizations. These work authorizations provide the formal
channel for Energy Research to communicate performance
expectations for specific work tasks to contractors. The
inclusion of performance expectations in work authorizations
would provide an opportunity to assess contractors' management
of resources, adherence to schedules, and compliance with an
agreed to deliverable.

        Energy Research relies on periodic reviews to understand
and evaluate research at the national laboratories. Individual
program offices evaluate contractor progress throughout the year
using, where appropriate, external peer review at the task
level. At the aggregated program level the Department relies on
ad hoc peer review teams, which include specialists from outside
the program offices, and Departmentally chartered advisory
groups to monitor research.

        We recognize that the goals of the basic and applied
research performed by these contractors are complex and provide
challenges for Energy Research program managers to set
expectations. For example, defining the specific outcomes of
these complex research activities under study may be impossible
to specify. However, the resources and tasks needed to
accomplish the goals of the research can be established and used
to evaluate how effectively and efficiently the contractors are
managing the research.

OBSERVATIONS AND CONCLUSIONS

        We found that Energy Research, except for its Office of
Fusion Energy, generally did not specify performance criteria
and metrics, even though useful information was available in
contractor research proposals. Specifically, 237 of the 264
tasks we selected for review did not specify the scope of work,
set resource limits, establish milestones, or specify
deliverables even though such information was proposed by
contractors. The audit disclosed that the Energy Research
office responsible for fusion energy developed measurable

performance expectations from information in the contractor
proposals. These expectations were communicated to contractors
as part of the written authorization to perform a specific
research task.

        This occurred because Energy Research generally envisioned
its role as one of providing funds to support basic and applied
research at Departmental laboratories without constraining the
scientific freedom of the contractors to manage research. In
effect, the execution of this practice did not provide
documented performance expectations so that Departmental
elements responsible for performance-based contract management
could determine whether contractors met schedules, properly used
resources, and provided deliverables as specified. Thus, we
recommend that the Director, Office of Energy Research, require
program offices to include performance criteria and metrics when
authorizing work at Departmental laboratories and use those
metrics to determine program progress.

                                            PART II

                              FINDING AND RECOMMENDATIONS

                                 Program Administration


FINDING

        Performance criteria and metrics are essential for the
Department to focus and coordinate research objectives and hold
contractors accountable for work performed. However, Energy
Research, excepting the office responsible for fusion energy,
generally did not include performance criteria and metrics in
work authorizations that provided for research at Departmental
laboratories. Specifically, work authorizations for 237 of 264
tasks selected for review did not contain a clear statement of
the work to be performed, resource limits, milestones, or
specific deliverables. While information was available in the
contractor's research proposals, Energy Research essentially
relied on the contractors to initiate and execute the research
without agreement on expectations. This practice precludes the
establishment of documented performance criteria and metrics
that Departmental elements responsible for performance-based
contract management can use to determine whether contractors met
the objectives of the Department for their research efforts.

RECOMMENDATIONS

        We recommend that the Director of Energy Research review
its administrative process and make appropriate changes.
Specifically, consider:

          1.   authorizing work based on requests received, and

        2. evaluating research progress based on the metrics in
these authorizations.

MANAGEMENT REACTION

        The Office of Energy Research agreed in part with the
finding and will take action on the recommendations in the
report. However, Energy Research is concerned that unnecessary
requirements on its research performers could reduce desirable
flexibility, stifle creativity, and lead to inferior results.
A summary of management comments and the auditors reply are in
Part III of this report.

                                    DETAILS OF FINDING

ENERGY RESEARCH'S RESPONSIBILITY TO MANAGE PROGRAMS

          Performance expectations are essential to provide a basis
for guiding and measuring performance and, thus, ensuring
contractor accountability for work performed. Congress
recognized the need for performance expectations in passing
Public Law 103D62 entitled "Government Performance and Results
Act of 1993." The Act required agencies to set performance
goals, measure program performance against those goals, and
report publicly on program progress.

        The Secretary established a Contract Reform Team to improve
contract management. The team's report emphasized that
aggressive changes were needed in the way the Department
conducted business. The team noted that the pursuit and use of
clear expectations, accurate performance metrics, and evaluation
against those metrics could resolve many of the Department's
contract management problems.

        The contract reform team's recommendations echo established
procurement principles which recognize that performance
expectations are essential to a quality procurement program.
These principles also apply to the acquisition of scientific
research services as well as the more conventional acquisition
of goods and services. In either case, program managers should
ensure the existence and use, as appropriate, of performance
expectations that measure success in regard to technical
achievement or progress, meeting cost and schedule goals, and
validating the usefulness of methods or approaches proposed.

PERFORMANCE INFORMATION AVAILABLE BUT NOT USED

        Energy Research generally did not use the information
available in contractor work proposals to establish performance
criteria and metrics to evaluate contractor management of
resources to accomplish research. Contractors, for example,
annually submitted work proposals which contained information
concerning current technical progress, proposed work objectives,
descriptions of work, expected milestones, expected future
accomplishments, and proposed resource needs. Energy Research
could have evaluated the reasonableness of contractors'
information and used it to establish performance criteria and
metrics that could have included:

        o deliverables for the tasks to be performed, including
statements of the area of exploration, experiments to be
performed, and objectives of the research;

        o resource limitations, including the name of the
principal investigator, time to be charged to the effort
and other constraints that may have effected the results
of the effort; and,

        o specific reporting requirements, including papers to be
submitted for publication, and progress reports for
program managers detailing developments in the research.

        Expectations of this type could have been used to evaluate
whether contractors performed the tasks specified, remained
within resource limits, met milestone schedules, and reported
accomplishments in a timely manner. However, except for the
Office of Fusion Energy, Energy Research program offices
generally did not utilize the contractors' proposals as a basis
for developing specific performance criteria and metrics at the
task or aggregated program level. The audit disclosed that the
work authorizations for 237 of 264 research tasks selected for
review did not contain clear statements of work, resource
limitations, milestone schedules, or specific deliverables.

        The Office of Fusion Energy used the contractors' proposals
to develop performance criteria and metrics that provided a
clear statement of the work to be performed, resource
restrictions, milestone schedules, and specific deliverables.
In Fiscal Year 1993, for example, Lawrence Livermore National
Laboratory (Livermore) submitted 18 proposals for research tasks
in fusion energy, of which 9 were selected for funding. In
authorizing each of the 9 tasks, the fusion energy office
identified the funding level, set the staffing level, included a
milestone schedule, and specified the deliverable. Appendix B,
for example, illustrates the inclusion of performance
expectations in a task to perform theoretical research at
Livermore.

        In contrast to the Office of Fusion Energy, the other
Energy Research program offices did not use contractor proposals
to develop performance criteria and metrics for inclusion in
work authorizations at the task or aggregated program level.
The respective work authorizations provided to Argonne National
Laboratory (Argonne) and Ames Laboratory (Ames), by the Office
of Basic Energy Sciences (Basic Energy Sciences), did not
include performance criteria and metrics. For example, they did
not identify funds for specific work proposals, set resource
limits, establish milestones, or specify deliverables. However,
both Argonne and Ames proposals contained information that
Energy Research could have used as performance criteria and
metrics in its work authorizations or the program guidance.

        o Argonne submitted 80 research proposals, with a total
cost of $145 million, all of which contained information
such as the proposed work to be performed, use of
financial and human resources, milestones, progress
reporting, and expected deliverables that could have
been used to establish performance criteria and metrics.
Rather than use Argonne's proposals to identify tasks
and establish criteria and metrics, Basic Energy
Sciences issued work authorizations totaling
$103 million using broad statements of work which did
not clearly specify which of the 80 proposals were
funded. Since specific funds were not linked to
specific proposals to be funded, we could not evaluate
whether the contractor performed within the proposed
limits of funding and staffing, met milestone schedules,
or provided the expected deliverables.


        o Ames submitted 23 proposals for material sciences
research, with a total cost of $12.2 million, all of
which contained information in sufficient detail to
establish performance expectations. Subsequently, Basic
Energy Sciences authorized $9.6 million for research
using broad statements of work which did not clearly
specify which of the 23 proposals were funded. Since
the proposals were not directly identified in the
statements of work, specific resource limitations could
not be defined, milestones could not be established and
deliverables could not be determined. As in the Argonne
example, we could not evaluate the contractor's
performance because the work authorizations did not
include performance criteria and metrics.

        The lack of performance criteria and metrics in the work
authorizations provided to Argonne and Ames made it impossible
for us to evaluate their performance of specific tasks or
programs within defined constraints. Of importance, however,
was that Energy Research could not illustrate that these
contractors were evaluated against performance criteria and
metrics in the work authorizations. Energy Research's work
authorizations simply did not contain performance criteria and
metrics that could be used to hold these contractors accountable
for performing specific tasks or research areas within defined
parameters.

        In work authorizations issued to Oak Ridge National
Laboratory (Oak Ridge), the Office of Health and Environmental
Research also did not identify performance criteria and metrics.
The work authorizations, for example, did not specify funding
levels for specific proposals, define resource limitations,
milestones, or deliverables even though such information was
available in the contractor's proposals. Oak Ridge, for
example, submitted 91 research proposals, estimated to cost
$31 million, for biological and environmental research. Each of
these proposals included proposed financial and human resources,
a statement of the work to be performed, milestones, reporting
schedules, and deliverables. Although information was available
in the contractor's research proposals, the Office of Health and
Environmental Research authorized $25.6 million for Fiscal Year
1992 without specifying the funding level for each proposal,
resource limitations, milestones or deliverables.

        Even in cases where funds could be identified for specific
proposals, program offices did not establish performance
criteria and metrics such as financial and human resource
limits, milestones or deliverables. The Office of High Energy
and Nuclear Physics, for example, did not include performance
criteria and metrics when it authorized $1.3 million for
Brookhaven National Laboratory (Brookhaven). Brookhaven's
proposal provided information concerning staffing, approaches to
developing specific detectors and instruments, and a variety of
other information that was not used to establish performance
criteria and metrics. The Office of High Energy and Nuclear
Physics authorized research with a statement of work that read
"funds are provided for research and development related to
detectors and instrumentation used in the high energy research
program." The work authorization did not set financial or human
resource restrictions, establish milestones, or specify
deliverables.

        These examples illustrate the lack of performance criteria
and metrics in documents used to authorize contractors to
perform research at Departmental laboratories. The lack of
performance criteria and metrics make it extremely difficult, if
not impossible, to objectively evaluate the contractor's
progress in furthering the Department's mission.
REASON FOR NOT ESTABLISHING PERFORMANCE EXPECTATIONS

        Energy Research allows contractors broad latitude to
propose initiatives for the Department's research agenda that is
of current interest to the scientific community. Energy
Research envisions its role as one of providing funds to
Departmental laboratories so that contractors can pursue these
initiatives for the advancement of science. Accordingly, under
the Department's institutional planning process, which is the
major oversight mechanism for these laboratories, Energy
Research has relied on the contractors to (1) define their
missions within broad research areas of which Energy Research
has traditionally funded or shown an interest in funding, (2)
develop budget estimates without Departmental technical
evaluation to determine the reasonableness of the estimates, (3)
expend funds within broad areas of research, (4) develop their
own methods of marking and measuring performance, and (5)
provide the results of peer reviews used to evaluate the quality
of the research.

        Energy Research relies on the contractors to manage the
technical aspects as well as the resources associated with the
research activity. Program managers said that they informally
communicate performance technical and resource guidance to the
principal investigators and laboratory management. Therefore,
they contended that the broad guidance used in their work
authorizations is sufficient to hold contractors accountable for
efficiently and effectively managing research activity. Also,
Energy Research uses a system of internal and external technical
peer reviews to determine the quality and progress of the
contractors' research.

EFFECT OF NOT ESTABLISHING PERFORMANCE EXPECTATIONS

        This informal system does not include documented
performance criteria and metrics that Departmental elements
responsible for performance-based contract management can use to
determine whether schedules were met, resources were properly
used, deliverables were as specified, and the research performed
was within the proper mission. Performance criteria and metrics
also assist external reviewers in evaluating contractor
management of research activity as well as provide a basis for
stakeholders to align objectives.

        The need for measurable performance criteria was made clear
in our review of the conclusions reached by a scientific peer
review panel. The scientific review panel gave high marks for
the research performed. However, the panel recommended that the
following be provided in writing as well as at the oral
presentation.

        o A clearly stated overall goal as well as the specific
aim of the research for the project period.

        o A summary statement of accomplishments in relation to
the principal investigator's perception of the goal.

        o The funding level should be made clear and should
include a summary budget specifying the number of
individuals supported, the travel, the supplies, and
equipment allocations. The personnel funded by the
project should be identified and their academic level
specified.

        The inclusion of this type of information in work
authorizations would improve both internal and external
stakeholders ability to evaluate the program as well as the
business management aspect of contractor research activity. The
inclusion of performance criteria and metrics could serve to
align the research objectives between the Department and its
contractors.

        Performance expectations are of greater importance
considering the current environment of constrained Federal
resources. Contractor performance judged in relation to
established expectations defined by the Department should be
used to make decisions concerning future budgetary allocations.
                                        PART III

       SUMMARY OF MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
                                    GENERAL REPLY

        The Office of Energy Research provided comments on the
official draft of this report and agreed in part with the
report's recommendations. In response to the report, Energy
Research will convene a process improvement team to: (1)
examine the format of field research proposals to see whether
changes in requested information and aggregation levels would
improve their use as a research management tool; (2) consider
modifications to research authorizations to better indicate
Energy Research's expectations and performance criteria with
respect to modified field research proposals; and (3) develop a
phased implementation plan to incorporate the recommendations of
the process improvement team into the FY 1998 and FY 1999 budget
cycles. This action is expected to be completed by July 1,
1996.

        However, in regard to the analysis used to support the
finding, Energy Research:

        o Agreed in part with our finding (conclusion) that a
failure to include specific resource limits, milestones,
and deliverables in work authorizations precludes the
establishment of documented criteria which can be used
to determine whether contractors meet the objectives of
the Department;

        o Is concerned that unnecessary requirements on its
research performers could reduce desirable flexibility
and stifle creativity and lead to inferior results; and

        o Uses a variety of techniques, some informal and not all
of which were examined by the Inspector General, to
ensure that it gives appropriate technical direction to
laboratory researchers.

        The full text of Energy Research's response is included as
Appendix C to this report.

Auditor Reply

        We recognize the inherent unpredictability of scientific
research and the impossibility of specifying outcomes,
particularly basic research. Even in a research environment,
however, performance expectations are essential to properly
manage. Milestones, together with other basic planning

information, such as scope of work, resource commitments, and
deliverables, are examples of information essential to
understand, evaluate, and correct contractor performance. The
level and specificity of items used to establish performance
expectations should be appropriate to the type of research. Our
finding was that Energy Research had not established such
expectations at any level--individual tasks or overall
aggregated programs. We are not recommending a level at which
Energy Research should manage its programs. Our recommendations
for including performance criteria and metrics, and evaluating
progress based on those metrics, are valid at whichever level
Energy Research chooses to manage its research.

        In addition to the need for performance expectations,
Energy Research's administrative support processes are
inconsistent with its management decision making. The current
administrative process gives the appearance of decision making
at an individual task level as it requires the proposing,
funding, and accounting for research at the individual task
level. However, as stated by officials in Energy Research, and
confirmed by our audit, management decisions are made at an
aggregated program level rather than at the individual task
level. Our analyses were based on the administrative processes
currently employed by Energy Research. We agree that Energy
Research's process improvement team should examine these
processes and modify or eliminate them as appropriate.
                                                     Appendix A


                   Energy Research Funds Provided to the
                    Management and Operating Contractors
                                    (In Millions)
                                       FY 1992       FY 1993           FY 1994

Ames Laboratory                    $      20.3   $      21.8       $      20.9

Argonne National Laboratory              112.8         129.5             150.0

Brookhaven National Laboratory           186.9         183.4             179.2

Continuous Electron Beam Accl. Fac.       23.4          28.3              43.8

Fermi National Accl. Laboratory          164.6         166.7             167.6

Lawrence Berkeley Laboratory             131.8         129.0             129.8

Lawrence Livermore National Lab.          88.9          83.7              85.5

Los Alamos National Laboratory           111.0          65.2              90.8

Oak Ridge National Laboratory            174.4         176.6             165.3

Pacific Northwest Laboratory              49.8          50.0              69.3

Princeton Plasma Physics Lab.            109.2          98.1             101.5

Sandia National Laboratory                28.9          28.8              28.6

Stanford Linear Accl. Center             120.4         131.4             120.2

Superconducting Supercollider                        91.6              105.5          *

Other Laboratories                                          31.8               33.1       34.1

Total                              $1,445.8      $1,431.1          $1,386.6
                                   MMMMMMMM      MMMMMMMM          MMMMMMMM

* $610 million for closing the facility is not included in the $1,386.6
billion total.
Appendix B is a separate document. To obtain a copy of this
appendix, please call Wilma Slaughter at (202) 586-1924.


                                                            Appendix C
OFFICE OF ENERGY RESEARCH RESPONSE TO INSPECTOR GENERAL OFFICIAL
DRAFT REPORT "AUDIT OF PROGRAM ADMINISTRATION BY THE OFFICE OF
ENERGY RESEARCH"

                                             SUMMARY

The Inspector General report recommends that the Director of
Energy Research review its administrative process and make
appropriate changes. Specifically, consider (1) authorizing
work based on requests received, and (2) evaluating research
progress based on the metrics in these authorizations. Energy
Research's response to the report findings and recommendations
is provided below.

I.      Findings
Energy Research recognizes the requirement for appropriate
performance measures to support the evaluation of contractor
performance, and has an effort under the Contract Reform Team to
establish such performance measures and integrate them into
contracts as part of the contract reform process.

The Office of Energy Research disagrees with the Inspector
General's finding that a failure to include specific resource
limits, milestones and deliverables in work authorizations
precludes the establishment of documented criteria which can be
used to determine whether contractors met the objectives of the
Department. Energy Research is concerned that unnecessary
requirements on its research performers could reduce desirable
flexibility and stifle creativity and lead to inferior results.
Energy Research uses a variety of techniques, some informal and
not all of which were exemined by the Inspector General, to
ensure that it gives appropriate technical direction to
laboratory researchers.

II.     Recommendations

        1.     Authorize work based on requests received.

               Response:     Energy Research agrees in part.

               a.     Energy Research accepts the value of "closing the
loop" by specifically relating authorizations to
field research proposals. However, we believe
that it is important not to limit flexibility of
researchers to follow up on unexpected results.

We agree with the Inspector General's statement
on page 5 that "...defining the specific outcomes
of these complex research activities under study
may be impossible to specify."

                      In response to this recommendation, Energy
Research will convene a process improvement team
to: (1) examine the format of field research
proposals to see whether changes in requested
information and aggregation levels would improve
their use as a research management tool; (2)
consider modifications to research authorizations
to better indicate Energy Research's expectations
and performance criteria with respect to modified
field research proposals; and (3) develop a
phased implementation plan to incorporate the
recommendations of the process improvement team
into the FY 1998 and FY 1999 budget cycles. This
action is expected to be completed by July 1,
1996.

               b.     Energy Research does not agree that performance
criteria and metrics contained in individual
research proposals should be utilized in work
authorizations at the individual task level. In
1993, the Office of Energy Research began working
with stakeholders to develop a set of performance
criteria for measuring R&D performance. These
criteria have been accepted by the Contract
Reform Team and are the basis for the scientific
measures in the model contract developed for
Energy Research laboratories. The criteria and
performance measures developed by Energy Research
have been incorporated into the contract signed
with the University of Chicago for the operation
of Argonne National Laboratory; the contract for
the operation of Brookhaven National Laboratory,
which will be signed shortly, includes them as
well. As laboratory contracts come up for
renegotiation, each will include similar criteria
for measuring R&D performance.

        2.     Evaluate research progress based on the metrics in
these authorizations.

               Response:      Energy Research agrees in part.

               a.     As stated in our response to recommendation 1,
Energy Research wishes to point out that research
progress should not be measured only against
performance criteria and metrics at the
individual task level. The basic process by
which Energy Research ensures that research
programs are of high quality and meet
Departmental objectives is by convening reviews
by outside experts using established performance
criteria. These peer reviews provide a written
evaluation, which includes some scoring of tasks.
The reviews are used by program managers to
adjust, redirect or stop tasks, as appropriate.
This process is recognized as the best practice
in the field of R&D management and is also used
by other government agencies, such as the
National Science Foundation and the National
Institutes of Health.

               b.     Energy Research intends to incorporate the
performance criteria discussed under 1.b. above,
in its guidance to reviewers. This will be
implemented as part of the process improvement
team activities referred to in 1.a. above.


                                       IG Report No. DOE/IG-0376

                              CUSTOMER RESPONSE FORM

        The Office of Inspector General has a continuing interest in
improving
the usefulness of its products. We wish to make our reports as respon-
sive as possible to our customers' requirements, and therefore ask that
you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are
applicable to you:

        1.     What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection would
have been helpful to the reader in understanding this report?

        2.     What additional information related to findings and
recommenda-
tions could have been included in this report to assist management
in implementing corrective actions?

        3.     What format, stylistic, or organizational changes might have
made
this report's overall message more clear to the reader?

         4.    What additional actions could the Office of Inspector General
have
taken on the issues discussed in this report which would have been
helpful?

        Please include your name and telephone number so that we may contact
you
should we have any questions about your comments.

        Name                                   Date

        Telephone                              Organization

        When you have completed this form, you may telefax it to the Office
of
Inspector General at (202) 586D0948, or you may mail it to:

               Office of Inspector General (IG-1)
               Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

        If you wish to discuss this report or your comments with a staff
member
of the Office of Inspector General, please contact Wilma Slaughter at
(202) 586D1924.
